  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


     Transportation Security Administration’s 

     Efforts to Proactively Address Employee 

                     Concerns 





OIG-XX-XX
 OIG-08-62                          May
                                   May   2008
                                       2008
                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                    May 28, 2008

                                    Preface


The Department of Homeland Security Office of Inspector General was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General Act of
1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the Transportation Security Administration’s (TSA) efforts to proactively
address employee workplace problems, issues, and concerns. It is based on interviews with TSA
employees and officials, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                    Richard L. Skinner 

                                    Inspector General 

Table of Contents/Abbreviations
Executive Summary ............................................................................................................................... 1 


Background…. ....................................................................................................................................... 2 


Results of Audit ..................................................................................................................................... 6 


     TSA’s Office of the Ombudsman ................................................................................................... 7 

     Implementation of the Integrated Conflict Management System .................................................. 12 

     Implementation of the National Advisory Council........................................................................ 18 

     Initiatives Are Not Fully Providing Intended Benefits .................................................................. 20 

     Recommendations.......................................................................................................................... 21 

     Management Comments and OIG Analysis .................................................................................. 23 



Appendices
   Appendix A:          Purpose, Scope, and Methodology............................................................................28 

   Appendix B:          Management Comments to the Draft Report ............................................................30 

   Appendix C:          TSA Internal Action Offices Designated to Address Complaints.............................41 

   Appendix D:          TSA’s Integrated Conflict Management System Maturity Model............................42 

   Appendix E:          Major Contributors to this Report .............................................................................43 

   Appendix F:          Report Distribution ....................................................................................................44 



Abbreviations
     DHS                 Department of Homeland Security 

     EEO                 Equal Employment Opportunity 

     FSD                 Federal Security Director 

     OIG                 Office of Inspector General 

     TSA                 Transportation Security Administration                                 

     TSO                 Transportation Security Officer        

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                    The Transportation Security Administration reports that a stable, mature, and
                    experienced workforce is the most effective tool it has to meet its mission.
                    Despite the value placed on the workforce, employees have expressed their
                    concerns about how the agency operates by historically filing formal
                    complaints at rates higher than other federal agencies of comparable size.
                    Additionally, Transportation Security Administration employees at some
                    airports have contacted the Congress, the Department of Homeland Security’s
                    Office of Inspector General, and the media to report their frustrations with
                    local management’s lack of resolution of ongoing workplace problems.

                    The Transportation Security Administration has taken proactive steps by
                    establishing the Office of the Ombudsman, the Integrated Conflict
                    Management System, and the National Advisory Council to help identify and
                    address its employees’ workplace concerns. Our overall audit objective was
                    to evaluate the effectiveness of these initiatives. Despite the positive steps
                    taken, the Transportation Security Administration could improve its initiatives
                    by establishing more effective internal systems, processes, and controls.
                    Specifically, the agency has not provided sufficient tools and guidance
                    regarding the structures, authorities, and oversight responsibilities of each
                    initiative, and has faced challenges in communicating the details of each to its
                    workforce.

                    Low employee morale continues to be an issue at some airports, contributing
                    to the Transportation Security Administration’s 17% voluntary attrition rate.
                    More than half of the employees we interviewed described the agency’s
                    efforts to educate them on the various initiatives available to address their
                    workplace concerns as “inadequate.” Accordingly, we are making six
                    recommendations to the Assistant Secretary of the Transportation Security
                    Administration to provide employees with sufficient tools, including clear
                    guidance and better communication, on the structures, authorities, and
                    oversight responsibilities of the initiatives we reviewed. The agency fully or
                    partly concurred with five of the recommendations and has taken action to
                    resolve four, which will remain open until implementation is completed. The
                    agency did not provide sufficient information on its actions reported for one
                    recommendation and did not concur with another. As such, both
                    recommendations remain open and unresolved.


          Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 1 

Background
                During the 1990s, many federal agencies experienced a sharp increase in the
                number of discrimination complaints filed. Equal Employment Opportunity
                (EEO) programs and other similar, formal programs and structures have
                traditionally been used to protect federal employees and provide processes and
                venues to seek redress from prohibited personnel practices. However, federal
                agencies and employees have frequently criticized the formal processes and
                mechanisms for handling these complaints as ineffective, burdensome, time-
                consuming, costly, and unnecessarily adversarial.

                As such, federal agencies have increasingly sought and adopted other, more
                flexible and more informal processes to assist with, replace, or augment the
                formal dispute resolution processes. For example, agencies may rely on a
                neutral third party to assist the disputants in reaching an amicable resolution
                through the use of various techniques, such as facilitative mediation. Such
                informal approaches help resolve workplace conflicts and improve
                communication and morale, while avoiding the cost, delay, and
                unpredictability of traditional adjudicatory processes.

                Transportation Security Administration (TSA) employees have expressed
                their concerns about how the agency operates by historically filing formal
                complaints at rates significantly higher than other federal agencies of
                comparable size. Employees at some airports have contacted the Congress,
                the Department of Homeland Security (DHS) Office of Inspector General
                (OIG), and the media to report their frustrations with local management’s lack
                of resolution of ongoing workplace problems. TSA employees, primarily
                Transportation Security Officers (TSOs, also known as airport screeners),
                have criticized the agency for discrimination, selective hiring practices,
                nepotism, management misconduct, and other questionable activities.
                Although TSA reports that a stable, mature, and experienced workforce is the
                most effective tool it has to meet its mission, the agency currently experiences
                a 17% voluntary attrition rate and low employee morale.

                TSA currently relies on several internal action offices to receive and manage
                employees’ formal complaints related to discrimination, disciplinary actions,
                and allegations of managerial misconduct. These offices include the Office of
                Civil Rights and Liberties; the Office of Inspection, Investigations Division;
                the Office of Security Operations, Management Inquiry Branch; and the
                Office of Human Capital. More information on these offices can be found in
                Appendix C.




      Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                               Page 2 

                           Each TSA action office handles
                                                                            Exhibit 1: Prevalent Workplace
                           certain types of formal employee
                                                                            Concerns of TSOs Interviewed
                           complaints, while the agency 

                           addresses informal employee 
               •    Inconsistent interpretation and
                           concerns at the local level. For 
               implementation of TSA policies and
                           the purposes of this review, we 
                procedures, such as operating
                           defined an employee workplace 
                  procedures, leave policies, and
                           concern as any expression of 
                   overtime requirements
                           dissatisfaction regarding TSA 
             •    Concerns with local management,
                           operations that is within agency 
               such as lack of trust, fear of
                           control, but not subject to 
                    retaliation, authoritarian management
                           existing internal administrative 
               style, mistreatment, and disrespect
                           adjudication procedures, as a 
             •    Poor communications and
                           formal EEO complaint would be. 
                 information sharing
                           Exhibit 1 shows some of the 
               •    Insufficient time to complete all
                           workplace concerns most 
                        work-related responsibilities, such as
                           frequently expressed by the TSA 
                training, collateral duties, and
                           employees we interviewed. 
                      Performance Accountability and
                                                                            Standards System documentation
                  TSA’s Initiatives                                    •    Favoritism demonstrated through
                                                                            preferential scheduling and unfair
                           To proactively assist employees                  promotion practices
                           in raising and addressing their     •            Insufficient staffing at passenger
                           workplace concerns before they                   checkpoints
                           become formal complaints, TSA
                           established the following programs and initiatives.

                           1. Office of the Ombudsman

                           The TSA Office of the Ombudsman is a confidential advocate for fair
                           processes, procedures, and programs for all agency employees. In January
                           2003, TSA created an “Organizational Ombudsman1” in response to
                           congressional concerns about the lack of collective bargaining rights for its
                           employees. As of October 2007, the TSA Office of the Ombudsman had nine
                           employees and reported to the TSA Special Counselor. The TSA
                           Ombudsman acts informally to:
                           • Answer inquiries and clarify policies;
                           •	 Facilitate open communication and collaborative problem-solving by
                              bringing parties together for dialogue;
1
 According to A Guide for Federal Employee Ombuds issued by the American Bar Association, an “Organizational
Ombuds” ordinarily addresses problems presented by members, employees, or contractors of an entity concerning its
actions or policies. The Organizational Ombuds facilitates fair and equitable resolution of concerns that arise within an
entity and is authorized to advocate for change within the entity. Unlike a Legislative or Executive Ombuds, an
Organizational Ombuds does not have the authority to hold the parent entity accountable.

                Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                          Page 3 

          •	 Serve as a channel for directing employee views, opinions, and feedback
             to TSA management;
          •	 Assist employees in identifying and evaluating options to resolve specific
             concerns and problems; and
          •	 When appropriate, directly resolve problems, using a variety of strategies
             and dispute resolution techniques.

          TSA employees contact the Ombudsman for a variety of reasons, such as
          discussing workplace concerns or to obtain information or clarification on
          existing policies and procedures. The Ombudsman also conducts airport site
          visits to increase its visibility within the agency, acquaint field employees
          with its roles and functions, and respond to employee requests for its
          intervention in helping to resolve workplace conflicts.

          2. 	Integrated Conflict Management System

          In November 2003, TSA established the Model Workplace Program Initiative
          to improve the overall workplace environment. This effort is guided by
          TSA’s Model Workplace Program Office and is accomplished through
          implementation of the Integrated Conflict Management System. In February
          2007, TSA mandated implementation of the Integrated Conflict Management
          System at all federal airports. As a result of more than 3 years experience
          with voluntary implementation at the local level, TSA reported it is currently
          moving toward greater agency-wide Integrated Conflict Management System
          sustainability and standardization.

          The Integrated Conflict Management System is designed to provide TSA
          employees with skills, structures, and support mechanisms to enhance
          communication, cooperative problem solving, and conflict management and
          prevention. TSA described the Integrated Conflict Management System as, “a
          key tool for creating an environment in which every TSA employee, at every
          location, and at every level, can raise issues, ideas, and concerns with
          confidence that they will be respectfully heard and responsibly addressed.”

          The Integrated Conflict Management System is not a separate program within
          the Model Workplace Program Office, but is rather a multidimensional
          approach pervasive throughout TSA. The Model Workplace Program Office
          helps foster, support, and integrate the design and local implementation of the
          Integrated Conflict Management System, and offers general guidance on the
          ways airports can provide employees with skills, structures, and
          organizational support that effectively promote model workplace values. The
          Model Workplace Program Office also maintains an online database of proven
          practices shared by local “Integrated Conflict Management System
          Coordinators,” and has developed a five-stage “Maturity Model” that airports
          can use to assess progress in building a local Integrated Conflict Management

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                         Page 4 

          System program and identifying any areas for improvement. More
          information on TSA’s Integrated Conflict Management System Maturity
          Model can be found in Appendix D.

          Local TSA management is responsible for Integrated Conflict Management
          System implementation at each airport. To implement the Integrated Conflict
          Management System, the airport’s Federal Security Director (FSD) designates
          a local Coordinator to:

               •	 Create local structures that provide employees with options for raising
                  and resolving workplace issues, and managing conflicts;
               •	 Track, analyze, and report on local workplace trends;
               •	 Serve as a resource for interest-based, problem solving mediation;
               •	 Provide regional Integrated Conflict Management System support to
                  local airports; and
               •	 Serve as an internal consultant to airport management on local
                  workplace issues, as well as the airport’s liaison with the Model
                  Workplace Program Office and other internal TSA units, such as the
                  Office of the Ombudsman and the Office of Civil Rights and
                  Liberties.

          3. 	National Advisory Council

          In December 2005, the TSA Administrator announced to all FSDs the creation
          of the National Advisory Council as part of the Model Workplace Program
          Initiative. According to its charter, TSA created the National Advisory
          Council to promote greater job satisfaction, improve organizational
          effectiveness, and help lead widespread cultural change. Two main
          components constitute the current National Advisory Council structure:

               •	 The Transportation Security Officer Advisory Council, which
                  represents TSA’s front-line screening workforce at the Nation’s
                  airports and has 34 members; and
               •	 The Assistant Federal Security Director for Screening Advisory
                  Council, which represents Assistant Federal Security Directors for
                  Screening at the Nation’s airports and has 21 members.

          The National Advisory Council meets for a week each quarter to advise senior
          TSA leadership on current workplace issues specific to the national screening
          workforce. Through committees that address internal functions, the National
          Advisory Council recommends potential resolutions and actions. TSA’s
          Administrator, his Deputy, and other members of the agency’s senior
          leadership team spend considerable time with the National Advisory Council
          throughout the week, including participating at an out brief on the final day of
          the quarterly session. To sustain these efforts, dialogue among National

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                         Page 5 

                   Advisory Council members, the Administrator, and members of the senior
                   leadership team continues via monthly conference calls between the quarterly
                   National Advisory Council meetings. To facilitate communication between
                   senior agency leadership and the entire TSA screening workforce, the
                   National Advisory Council initiated the establishment of a national network of
                   local airport points of contact, which TSA describes as a pivotal component of
                   the National Advisory Council’s external communication strategy for direct
                   and unfiltered feedback from the field.

                   While these three proactive TSA initiatives are designed to assist employees
                   with workplace concerns, each has its unique purpose or approach. The
                   Office of the Ombudsman is a neutral third party that advocates fair processes
                   and procedures for all agency employees, the Integrated Conflict Management
                   System serves to keep local issues local, and the National Advisory Council
                   addresses agency-wide issues of the screening workforce. In this context, our
                   overall audit objective was to evaluate the effectiveness of TSA’s efforts to
                   proactively identify and address employee workplace problems, issues, and
                   concerns. More specific information on our objectives, scope, and
                   methodology can be found in Appendix A.



Results of Audit
                   TSA could improve its current efforts to proactively identify and address
                   employees’ workplace concerns by establishing more effective internal
                   systems, processes, and controls. Specifically, the agency has not provided
                   sufficient tools and clear guidance on the structures, authorities, and oversight
                   responsibilities of the three proactive initiatives we reviewed:
                        • Office of the Ombudsman;
                        • Integrated Conflict Management System; and
                        • National Advisory Council.

                    TSA also has faced challenges in effectively communicating the details of the
                    various internal options currently available for employees to address their
                    workplace concerns to its workforce. As a result, employees are
                    underutilizing the initiatives, and longstanding workplace issues may be
                    unresolved at some locations. This contributes to further employee
                    workplace dissatisfaction and employee turnover, which could adversely
                    affect the effectiveness of TSA’s security screening function.




         Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                  Page 6 

 TSA’s Office of the Ombudsman

          TSA’s Office of Ombudsman could improve in assisting employees with their
          workplace issues and concerns. Many employees are either unaware of or
          lack trust and confidence in the Ombudsman’s functions. The Ombudsman’s
          airport site visits also could be more effective in increasing its visibility within
          the agency, acquainting employees with its functions, and responding to
          requests for intervention. Further, the Ombudsman does not adequately track
          and analyze employee contact data to identify trends, assist in planning airport
          site visits, and report on the office’s significant activities and
          accomplishments.

          Employees Lack Awareness, Trust, and Confidence in the Ombudsman’s
          Services

          TSA employees demonstrated limited knowledge and awareness of the
          Ombudsman’s services. Employees we interviewed said that TSA could be
          more effective in educating the workforce about the Ombudsman’s role in
          assisting with workplace concerns. For example:

               •	 One-third of the employees were not aware of the Ombudsman’s role,
                  functions, and services.
               •	 Nearly two-thirds of the employees believed the Office of the
                  Ombudsman’s education efforts were ineffective in communicating
                  information about its functions and services.
               •	 Nearly three-quarters of the employees believed the Ombudsman’s
                  education efforts were ineffective in providing information about other
                  channels and procedures within TSA, apart from the Ombudsman, for
                  addressing workplace problems, issues, and concerns.

          Due to the size and complexity of the agency, TSA has faced challenges in
          communicating the Ombudsman’s role and services to the workforce.
          Typically, airport management disseminates information about TSA’s
          proactive programs and initiatives to the local workforce through such
          methods as mass emails, bulletin board postings, internal publications, and
          informal briefings. The Office of the Ombudsman also has recently taken
          steps to raise and maintain awareness of its services. For example, the
          Ombudsman distributed a supply of Ombudsman brochures to all FSDs
          accompanied by a message encouraging airports to place at least one poster
          advertising the Ombudsman services in a high employee traffic area.
          However, the approximately 43,000 passenger and baggage screeners who
          compose the majority of TSA’s 50,000 employees are stationed at airport
          checkpoints without immediate access to the flow of automated and hard copy
          information. Employees absent from their local shift briefings also may not


Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                         Page 7 

          receive information on workplace initiatives, such as the Ombudsman’s
          services, that are discussed.

          Some employees described their fear of retaliation by local management if
          they presented issues to the Ombudsman. At every airport we visited, and
          also within TSA Headquarters, management regularly stressed that an
          employee’s chain of command was the preferred first option for pursuing
          resolution of a workplace problem, issue, or concern. Employees we
          interviewed said that managers discouraged them from consulting the
          Ombudsman during airport site visits. Other employees believed local
          management was aware of employee communications with visitors and feared
          repercussions if they contacted the Ombudsman with their concerns.
          Employees also feared a lack of confidentiality at the Ombudsman’s meetings.
          For example:

               •	 At one airport, the FSD and a member of the airport's Human
                  Resource staff reportedly reprimanded an employee for
                  communicating with the Ombudsman about an issue. The employee
                  reported the reprimand to the Ombudsman, who contacted the FSD to
                  express displeasure with the FSD's action. The employee was
                  allegedly reprimanded again for the second communication with the
                  Ombudsman. The Ombudsman finally resolved the matter with the
                  help of the airport's Area Director.
               •	 At another airport, several employees reported that a screening
                  manager was taking the names of employees as they entered focus
                  group meetings. A screening manager also reportedly advised one
                  employee being considered for a promotion that attending the
                  Ombudsman’s meeting “was a career move,” implying that it could
                  threaten the screener’s advancement.
               •	 The Ombudsman mentioned that some airport employees reported that
                  they did not trust some of their co-workers present at the
                  Ombudsman’s meetings and were less likely to publicly voice their
                  viewpoints, for fear the information and their identity would be
                  relayed to management.

          Further, at each airport we visited, employees expressed a lack of confidence
          in the Ombudsman’s ability to help resolve their workplace issues. Two-
          thirds of the employees we interviewed, who had contacted the Ombudsman
          for assistance, said they were dissatisfied with the quality of service and
          outcomes. More than half of those respondents said that, based on their prior
          experiences and the lack of corrective actions to address their issues, they
          would not refer other TSA employees to the Ombudsman for help.




Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                         Page 8 

          Ombudsman is Hindered in Conducting Site Visits and Ensuring Results

          The Office of the Ombudsman has lacked the independence to conduct its site
          visits unhindered. Where visits have been carried out, the Ombudsman has
          not consistently documented or followed up to ensure implementation of
          recommended solutions to the problems identified.

          Site visits are a critical tool for the Ombudsman to conduct outreach to
          employees and identify and address employee workplace concerns. However,
          senior TSA officials, Headquarters-based Area Directors, and some FSDs
          have interfered with some of the Ombudsman’s airport site visit plans. For
          example, a TSA official said that, at times, Area Directors persuaded the
          agency to postpone the Ombudsman’s site visits. Also, in July 2007, the
          Office of Special Counselor discontinued the Ombudsman’s scheduled airport
          visits for the remainder of the calendar year. TSA officials said that, in
          addition to extra security concerns at the airports during peak summer months,
          airport visits by TSA's Ombudsman staff, the DHS OIG, and other entities
          were perceived by both TSA Headquarters and local airport management as
          disruptive to airport operations.

          Similarly, employees at several airports reported that local management
          obstructed some of the Ombudsman’s activities during site visits. For
          example, employees told the Ombudsman that managers gave them the wrong
          room number for Ombudsman meetings, informed them of the meetings at the
          last minute, and encouraged them not to attend some meetings.

          In accomplishing its site visits, the Ombudsman has not consistently
          suggested corrective actions in trip reports as a means of making airport
          leadership accountable for addressing the issues identified. The Ombudsman
          typically concludes each site visit by conducting an out brief with the local
          FSD, providing an oral assessment of what the team observed, and discussing
          suggestions for problem resolution. Subsequently, the Ombudsman
          documents the results of the visit in a report within 15 days of the trip’s
          completion. However, based on our review, only 2 of the 20 trip reports for
          the 8 airports we visited contained written recommendations for the FSDs’
          consideration. TSA officials said there has always been a struggle about the
          inclusion of the Ombudsman’s recommendations in trip reports. The agency
          discontinued documenting suggested corrective actions to management in the
          reports because the documents are accessible to the public and may be used as
          support for removing an FSD.

          Even where recommendations are documented, the Office of the Ombudsman
          does not consistently follow up to determine whether local management has
          responded to the concerns raised during its site visits. The Ombudsman
          reported conducting approximately 172 visits to airports since June 2003.

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                         Page 9 

                         Based on our review of 20 trip reports for the 8 airports we visited, as well as
                         interviews with 320 TSA airport employees, local management rarely
                         implemented change directly related to the Ombudsman’s site visits and
                         suggested corrective actions. Only 49% of the employees we interviewed
                         were aware of the Ombudsman’s previous visits to their airport, and just 12%
                         of those believed that positive changes or corrective actions had resulted from
                         those visits.

                         The Ombudsman’s limited ability to conduct site visits and ensure that
                         corrective actions are implemented can be attributed to the office’s lack of
                         authority and independence. According to A Guide for Federal Employee
                         Ombuds, referred to herein as The Guide,2 the independence of an
                         Ombudsman is a fundamental prerequisite to effective operations. To ensure
                         independence, the federal Ombudsman should, if possible, report and have
                         direct access to the highest agency official. TSA has not established the
                         Office of the Ombudsman independently with direct access to the highest
                         agency official and therefore the status and authority to be effective. TSA’s
                         Ombudsman reports to the Office of Special Counselor, not the Assistant
                         Administrator.

                         TSA’s Ombudsman also does not have a charter or official document that
                         describes its authority, roles, and responsibilities. According to the Guide, an
                         entity establishing an Ombudsman should do so pursuant to a legislative
                         enactment, or a publicly available written charter, which clearly sets forth its
                         role and jurisdiction. The only written support the Ombudsman provided
                         regarding the development of the office’s roles, responsibilities, and authority
                         was a press release from the Acting TSA Administrator introducing an agency
                         Ombudsman to all employees. The press release did not provide details about
                         the office’s functions and services. TSA also could not provide
                         documentation of the Ombudsman’s authority to operate unfettered and
                         ensure implementation of corrective actions recommended as a result of its
                         site visits.

                         The Ombudsman Is Not Providing Useful Agency-wide Trends and
                         Analysis

                         TSA’s Ombudsman does not sufficiently track and analyze incoming
                         employee contact data to identify patterns and trends, assist in planning airport
                         site visits, or produce useful reports highlighting significant activities and
                         accomplishments. According to the Standards for the Establishment and
                         Operations of Ombuds Offices, issued by the American Bar Association,

2
 A Guide for Federal Employee Ombuds, developed by the Coalition of Federal Ombudsman and the Federal
Interagency Alternative Dispute Resolution Working Group Steering Committee, builds upon the Standards for the
Establishment and Operations of Ombuds Offices issued by the American Bar Association in February 2004.

               Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                       Page 10 

          February 2004, the Office of the Ombudsman should be accountable for its
          activities and results, as well as identifying complaint patterns and trends.

          TSA’s Ombudsman does not have a single system to sufficiently track and
          analyze incoming employee contact data. Currently, the Ombudsman relies
          on the Inquiry Management System to collect employee contact data, which
          could potentially be valuable for the Ombudsman in identifying and analyzing
          employee workplace concerns. The Inquiry Management System database is
          cumbersome and does not have features to support the data analysis necessary
          to identify trends. In order to generate any useful trend analyses, a user must
          transfer data from the Inquiry Management System into other software and
          run the appropriate filters. According to the Ombudsman, this process is very
          time-consuming and requires specialized training and knowledge to use the
          software for additional analysis. At the time of our audit, the Program
          Assistant position responsible for manually manipulating and analyzing
          Inquiry Management System data had been vacant since December 2006.

          The Ombudsman has not incorporated historical data in the Inquiry
          Management System to support its planning or provide a complete picture of
          its operational effectiveness over the years. Before TSA implemented the
          Inquiry Management System in April 2005, the Ombudsman maintained
          employee contact data in Microsoft Excel. The Ombudsman has not
          transferred all Excel data collected prior to April 2005 to the Inquiry
          Management System. The separate data files make a simple request for
          comprehensive employee contact data burdensome. We requested all
          employee contact data for Fiscal Years 2004 through 2007, which the
          Ombudsman provided in 42 different Excel spreadsheets. We had to
          manually merge and analyze the data to identify Ombudsman activities and
          trends for that timeframe. This exercise was very time-consuming and
          challenging, and yielded incomplete results.

          Without good historical data and analysis, the Office of the Ombudsman has
          been unable to prepare an annual business plan or report on its significant
          activities and accomplishments to demonstrate success in proactively
          resolving employees’ workplace concerns. The Standards for the
          Establishment and Operations of Ombuds Offices advises that an Ombudsman
          should issue and publish periodic reports summarizing its findings and
          activities to demonstrate accountability. Reports may include statistical
          information about the contacts with the Ombudsman, subjects the
          Ombudsman addressed, or evaluation by complainants, and may be developed
          annually, bi-annually, or more frequently.

          Although the Ombudsman produces monthly and quarterly reports based on
          Inquiry Management System data, these reports do not describe the
          Ombudsman’s primary activities, particularly the types of employee contacts

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 11 

                    that were resolved, and the number of formal complaints that were prevented.
                    The Ombudsman recently initiated an anonymous survey mechanism to
                    collect feedback from individuals who contacted the office about their level of
                    satisfaction with the services offered and provided. However, the survey is
                    not mandatory, is inconsistently administered, and therefore does not fully
                    reflect employee views of the Ombudsman’s services.


Implementation of the Integrated Conflict Management System
                    Although TSA has taken a significant step toward improving its workplace
                    environment by adopting the Model Workplace Program Initiative and
                    developing the Integrated Conflict Management System for agency-wide
                    implementation, TSA does not support effective local Integrated Conflict
                    Management System implementation. The agency does not currently ensure
                    that airports use the range of Integrated Conflict Management System
                    components available to help address employees’ workplace concerns.
                    Furthermore, TSA does not adequately promote local Integrated Conflict
                    Management System options to its workforce. As a result, TSA employees
                    may not have access to effective local opportunities to raise and address their
                    workplace concerns and obtain the full benefits of a model workplace culture
                    nationwide.

                    TSA Does Not Ensure Effective Local Integrated Conflict Management
                    System Implementation

                    TSA management at the eight airports we visited demonstrated different
                    degrees of commitment to local Integrated Conflict Management System
                    implementation, which may not effectively support the program. TSA is
                    building the Integrated Conflict Management System both locally and
                    nationally to create an organizational culture in which every employee can
                    raise issues, ideas, and concerns with confidence that they will be respectfully
                    heard and addressed. However, some local managers implement the
                    Integrated Conflict Management System at varying levels, based on the time
                    and personnel resources they are willing to devote to this effort.

                    Management at some of the locations we visited said that local Integrated
                    Conflict Management System implementation represents an additional
                    administrative burden, which airports may not have the personnel to support.
                    Local managers said that TSA directed airports to designate a local Integrated
                    Conflict Management System Coordinator without providing specific tools or
                    authorizing a dedicated position to perform the associated functions.
                    Therefore, some managers have chosen to assign a full-time TSO or
                    administrative employee to serve collateral duty as the local Integrated


          Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                  Page 12 

          Conflict Management System Coordinator to meet TSA’s implementation
          mandate. For example:

          •	   At two airports visited, the collateral duty Integrated Conflict
               Management System Coordinators said they did not have sufficient time
               during regular work hours to perform the key Integrated Conflict
               Management System-related duties, such as tracking the status of
               employees’ workplace issues, conducting workforce outreach, or
               regularly participating in monthly Integrated Conflict Management
               System Coordinator conference calls.
          •	   At one large airport, current management downgraded its full-time
               Integrated Conflict Management System Coordinator position to a part-
               time, collateral duty assignment. The assigned individual is currently
               employed full-time in an administrative position with two other collateral
               duty assignments.

          TSA does not provide sufficient tools and guidance to ensure airport
          management devotes adequate support for the implementation and assessment
          local Integrated Conflict Management System programs. Although the Model
          Workplace Program Office provides general guidance on setting goals and
          achieving outcomes, actual implementation of the Integrated Conflict
          Management System, including the dedication of program resources, is the
          responsibility of local airport management. The Model Workplace Program
          Office has no authority, such as that provided in a TSA management directive,
          over how local Integrated Conflict Management System programs are
          structured and implemented. Because it is outside of the Integrated Conflict
          Management System Coordinators’ chain of command, the Model Workplace
          Program Office does not conduct site visits to assess the status of airports’
          local Integrated Conflict Management System programs and is unable to
          compel local coordinators to participate in any of the Integrated Conflict
          Management System-related activities it sponsors, such as monthly
          conference calls.

          Further, TSA does not ensure that airports track and report the number or
          status of the workplace issues raised through the Integrated Conflict
          Management System to determine whether local management is timely and
          appropriately responding to its employees’ concerns. Among the Integrated
          Conflict Management System Coordinators’ duties and responsibilities are
          tracking, analyzing, advising, and reporting workplace trends to leadership,
          and providing information on organizational and local workplace issues. Only
          three of the eight airports we visited were able to provide sufficient evidence
          that they were actively tracking the status of issues raised by their employees
          using a database or other internal system. The local Integrated Conflict
          Management System Coordinator was responsible for maintaining the local


Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 13 

          tracking system at two of these locations, while the local employee council
          maintained this system at the third location.

          A lack of commitment to the Integrated Conflict Management System by
          leadership at any level can present a serious challenge to the agency’s efforts
          to establish a model workplace culture nationwide. To improve local airport
          leadership’s understanding of and support for model workplace concepts,
          Model Workplace Program Office staff facilitated a 2-day interactive
          workshop on “Building a High Performing Workplace” as part of a 4-week
          “FSD Academy” for new incoming FSDs, launched by TSA’s Office of
          Security Operations in October 2007. Although 20 new FSDs attended this
          inaugural program, which included a section on the Integrated Conflict
          Management System structure, TSA provided no documented evidence to
          support the agency’s intent to require current FSDs to participate in the entire
          program or at least in the Model Workplace Program Office’s workshop.

          TSA Should Ensure Effective Local Use of Integrated Conflict
          Management System Components

          Local TSA managers do not make effective use of Integrated Conflict
          Management System skills, structures, and support mechanisms available to
          enhance communication and cooperative problem solving. As shown in
          Exhibit 2, the Model Workplace Program Office encourages airports to use an
          array of mechanisms for employees to raise and address their workplace
          concerns locally through the Integrated Conflict Management System.
          However, airports may not be using these components as much or as
          effectively as possible to assist employees with problem resolution. For
          example:
              •	 Employee Advisory                    Exhibit 2: Available Integrated 

                  Councils: Some airports              Conflict Management System 

                  have not established formal                     Elements 

                  employee advisory councils
                  to assist in addressing          •	 Employee advisory councils
                  employee concerns. Model         •	 Employee concern
                  Workplace Program Office             forms/suggestion box programs
                  guidance notes the               •	 Peer conflict coaching
                  importance of developing a       •	 Training in conflict management
                  charter for local employee           and cooperative problem solving
                  councils and explains that a     •	 Safety action teams
                  charter helps establish the      •	 Group “Town Hall” meetings with
                  council as a continuing part         airport leadership
                  of an airport’s conflict
                                                   •	 Hardship and scheduling
                  management system rather
                                                       committees
                  than a temporary result of
                  management action.               •	 Promotion boards

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 14 

                   Although all eight airports in our sample had some form of local
                   employee council, two were operating without a formal charter
                   documenting their scope of responsibilities, composition, meeting
                   schedule, and other internal guidelines. Similarly, a recent TSA
                   survey of FSDs showed that 93% of all responding locations used
                   employee councils, but only 76% of those had formal charters.

               •	 Concern Forms: Airports do not always use concern forms to
                  effectively assist with soliciting and responding to workforce issues as
                  intended. The Model Workplace Program Office advises that concern
                  forms be used as an Integrated Conflict Management System tool for
                  TSA employees to raise both individual and organizational workplace
                  issues. It further suggests that concern forms be designed so that
                  employees can be confident that their submissions will be read,
                  researched, and addressed. Only five of the eight locations we visited
                  made such forms available to solicit employee feedback. TSA’s
                  survey of airport FSDs showed that only 52% of all responding
                  airports were using concern forms.

                   Some TSA employees may be reluctant to use concern forms because
                   they are not comfortable with the manner in which they are handled.
                   Some employees we interviewed said the individual designated to
                   respond to concern forms did not sufficiently address the issues raised,
                   was too closely connected to management, or sometimes failed to
                   handle the forms confidentially. For example, employees at one
                   airport said that concern forms, even when marked confidential, were
                   discussed in meetings and shared with the workforce.

               •	 Peer Conflict Coaching: TSA does not ensure that qualified conflict
                  coaches are made available at field locations, even though the Model
                  Workplace Program Office recommends that airports include peer
                  conflict coaching as another key component of a local Integrated
                  Conflict Management System program. Among other important roles,
                  conflict coaches are specially trained, collateral duty TSA employees
                  who provide confidential guidance and information to their peers
                  regarding local conflict management options. Only three of the
                  airports we visited were actively using qualified conflict coaches as
                  part of their Integrated Conflict Management System programs. At a
                  fourth airport, employees were being trained as conflict coaches, but
                  the program was not yet implemented. At a fifth airport, employees
                  were trained as conflict coaches, but the airport never implemented
                  such coaching as a component of its local Integrated Conflict
                  Management System.



Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 15 

               •	 Training: Airport management is not ensuring that required Integrated
                  Conflict Management System training is provided to its employees.
                  Although Model Workplace Program Office staff said that
                  participation in the Conflict Management Essentials course is
                  mandatory for the entire TSA workforce, more than 20% of the
                  employees we interviewed said they had not taken this training. The
                  Model Workplace Program Office also sponsors Cooperative Problem
                  Solving for Managers, which is an interactive course to help TSA
                  management personnel build proactive, practical, and usable skills in
                  cooperative problem solving and conflict management. Only 37% of
                  all airports responding to TSA’s recent survey said that all of their
                  security managers had received this training.

          Although we observed wide variations regarding how airports were
          implementing the Integrated Conflict Management System, we identified one
          location where the Integrated Conflict Management System program
          incorporated many of the elements advocated by the Model Workplace
          Program Office to support a more robust model workplace culture. Among
          other components, this airport’s Integrated Conflict Management System
          consists of a chartered employee advisory council, concern forms, Town Hall
          meetings with the FSD, a suggestion box program, and peer conflict coaching.
          Furthermore, the full-time Integrated Conflict Management System
          Coordinator is actively supported by airport management, has a written
          implementation plan to guide future Integrated Conflict Management System
          development, and ensures that all new employees receive Conflict
          Management Essentials training during orientation. The Integrated Conflict
          Management System Coordinator also uses an internal system to track the
          status of workplace issues raised by local employees, and publishes a monthly
          newsletter to support the broad dissemination of outcomes to the workforce.

          The differences we identified can be attributed to the fact that local Integrated
          Conflict Management System activities are at the discretion of airport
          management. Also, Integrated Conflict Management System implementation
          currently lacks an appropriate degree of oversight and accountability beyond
          the FSD level, and the Model Workplace Program Office has not yet
          established performance metrics by which TSA can measure the effectiveness
          of all local Integrated Conflict Management System programs.

          TSA Does Not Ensure Employee Awareness and Use of the Integrated
          Conflict Management System Locally

          As with the Ombudsman, TSA employees we interviewed had limited
          awareness of, engagement with, and confidence in current Integrated Conflict
          Management System concepts and practices as a local option available to help
          address their workplace concerns. While most of the employees had some

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 16 

          knowledge of the purpose, goals, and elements of TSA’s Integrated Conflict
          Management System, nearly half said their airports’ efforts to provide them
          with this information were ineffective.

          Although half of the employees we interviewed expressed an overall
          dissatisfaction with their current work environment, more than 80% said they
          had never initiated any direct contact with their local Integrated Conflict
          Management System Coordinators to discuss or resolve a workplace problem,
          issue, or concern. Underscoring their lack of awareness, only 41% of the
          employees were able to correctly identify their airport’s current Integrated
          Conflict Management System Coordinator by name.

          Not all of the Integrated Conflict Management System Coordinators we
          interviewed were conducting effective outreach to their local workforce,
          which contributed to the lack of employee engagement. Although most
          coordinators we interviewed said that they communicate information about
          the Integrated Conflict Management System to employees through
          newsletters, emails, bulletin boards, or employee councils, only three of the
          eight claimed to be actively introducing the Integrated Conflict Management
          System as part of orientation for new hires. Further, none provided
          documented evidence that they currently follow a formal plan for conducting
          employee outreach. Three Integrated Conflict Management System
          Coordinators explicitly recognized the need to improve their efforts to
          increase Integrated Conflict Management System awareness among the local
          workforce.

          Our interviews revealed that some TSA employees were reluctant to use the
          Integrated Conflict Management System as a local option for raising and
          addressing their workplace concerns. At every airport we visited, and within
          TSA Headquarters, management regularly stressed that an employee’s chain
          of command is the preferred first option for pursuing resolution of a
          workplace problem, issue, or concern, discouraging the use of alternative
          procedures, such as the Integrated Conflict Management System. Of the
          employees we interviewed who had previously initiated contact with their
          local Integrated Conflict Management System Coordinator to address
          workplace concerns, 41% were dissatisfied with the quality of services
          provided. Some employees were not confident that their local Integrated
          Conflict Management System programs were yielding positive outcomes.
          Others questioned their Integrated Conflict Management System programs’
          independence from airport management and suggested that a lack of
          confidentiality inherent in the Integrated Conflict Management System
          contributed to their reluctance to bring any workplace concerns forward.




Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 17 

 Implementation of the National Advisory Council
          The National Advisory Council could be more effective in identifying and
          communicating agency-wide workforce issues to senior leadership. TSA has
          not effectively communicated the National Advisory Council’s mission,
          purpose, and outcomes to National Advisory Council members, points of
          contact, and the screening workforce to ensure that all employees are fully
          represented and benefit from its efforts. TSA employees, including some
          National Advisory Council members, were insufficiently aware of, or lacked
          confidence in the National Advisory Council. More than half of the
          employees we interviewed said that they were not aware of the overall
          mission, functions, and goals of the National Advisory Council. More than
          half of the employees also said that the National Advisory Council was
          ineffective in promoting greater job satisfaction and improving organizational
          effectiveness. For example, three Assistant FSD for Screening Advisory
          Council field points of contact did not view the National Advisory Council as
          a useful channel for raising their workplace issues to TSA leadership and said
          they used other, more direct avenues within TSA for bringing their issues to
          the attention of Headquarters’ leadership.

          Although the National Advisory Council has contributed to major
          developments in areas having considerable impact on frontline employees,
          such as wages, performance measurement, training, and standard operating
          procedures, the National Advisory Council’s field support structure has not
          been sufficiently developed to effectively accomplish its mission. TSA relies
          on airport employees to constitute a national network of field points of contact
          to supplement the TSO Advisory Council and Assistant FSD for Screening
          Advisory Council; however, the network is still not complete. Based on our
          review of TSA records, 16 of 136 TSO Advisory Council field points of
          contact positions, and 17 of 126 Assistant FSD for Screening Advisory
          Council field points of contact positions remained vacant. According to TSA
          officials, the National Advisory Council is still in the process of testing and
          establishing how to create and best utilize the extensive network given the
          challenges of staffing, connectivity, and 24-hour-per-day operations in the
          field.

          TSA also has not ensured that field points of contact understand their roles
          and are sufficiently engaged in supporting the initiative. Most National
          Advisory Council field points of contact at the airports we visited
          demonstrated insufficient knowledge of their National Advisory Council-
          related roles and responsibilities. As such, most points of contact were not
          actively engaged in raising local employee concerns to their National
          Advisory Council members for consideration, or in communicating
          information from their National Advisory Council members to the local
          workforce. For example:

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 18 

               •	 At five of the eight airports visited, TSO Advisory Council field points
                  of contact reported a lack of awareness of the National Advisory
                  Council’s activities and mission, as well as their roles and
                  responsibilities as points of contact.
               •	 Some field points of contact explained that their TSO Advisory
                  Council members never provided them guidance on the National
                  Advisory Council’s mission or their own expected roles and
                  responsibilities.
               •	 Two points of contact did not know the Assistant FSD for Screening
                  Advisory Council members with whom they were to coordinate on
                  employee workplace issues.
               •	 One point of contact reported never having received any information
                  from his Assistant FSD for Screening Advisory Council member on
                  the outcomes of the quarterly meetings or their accomplishments.
               •	 Another employee was appointed as a field point of contact more than
                  1 year prior to our visit, but still had not been contacted by his TSO
                  Advisory Council member for input on workforce concerns.

          In addition to providing insufficient guidance, TSA has not ensured that
          National Advisory Council members and field points of contact are provided
          adequate time to fulfill their National Advisory Council roles. According to
          the TSO Advisory Council charter, members are to gain input, ideas, and
          concerns from the TSA workforce while keeping employees informed of the
          National Advisory Council’s activities, such as quarterly meetings and their
          outcomes. Although TSA encourages airport FSDs to allow members 4 hours
          per week to perform National Advisory Council-related duties, most of the
          TSO Advisory Council members we interviewed said that the amount of time
          they were provided was not enough to fulfill this role. Some said they used
          personal time or switched shifts to carry out their National Advisory Council
          responsibilities. One point of contact competed for the use of a limited
          number of computers with Internet access at his location to accomplish his
          duties.

          The points of contact are to facilitate communication between the National
          Advisory Council members and the local employees; however, TSA does not
          ensure that National Advisory Council members and the field points of
          contact effectively coordinate with local Integrated Conflict Management
          System initiatives, such as employee councils. Although TSA stresses the
          importance of integrated communication and cross-functional approaches to
          problem solving to achieve organizational success, only three of the eight
          National Advisory Council field points of contact we interviewed are either
          members of their airports’ local employee councils or regularly interact with
          their local Integrated Conflict Management System Coordinators. One point
          of contact, who is also a member of his airport’s local employee council,
          confirmed the benefit of his dual roles by explaining that he briefs the local

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 19 

              employee council on agency-wide issues that the National Advisory Council
              is working on so the local employee council can focus its time and efforts on
              addressing more localized issues.


Initiatives Are Not Fully Providing Intended Benefits
              Because TSA has not effectively communicated or provided sufficient tools
              and guidance regarding the three initiatives reviewed, employees are not fully
              benefiting from these options to assist them with their workplace concerns.
              Where the initiatives were used, employees at times expressed dissatisfaction
              with outcomes and a lack of confidence in their ability to help resolve their
              workplace issues. As such, employees are underutilizing the programs,
              allowing longstanding concerns to remain among the workforce at some
              locations. For example,

                   •	 Some employees at one airport said that ongoing workplace issues,
                      such as a hostile work environment and the inconsistent application of
                      TSA’s standard operating procedures, were a major contributing factor
                      to low employee morale, despite reporting these concerns to the
                      Ombudsman during a prior site visit.
                   •	 The Ombudsman visited another airport in 2005 and 2006, and
                      reported low employee morale, insufficient time allowed for
                      employees to meet TSA’s weekly training requirement, fear of
                      managerial retaliation, and favoritism in promotion practices and
                      disciplinary matters. During our visit to this airport in 2007,
                      employees said these same issues remained a significant distraction.
                   •	 Some employees said that their local Integrated Conflict Management
                      System was ineffective in resolving ongoing workplace concerns.
                   •	 One National Advisory Council point of contact said that there was not
                      a strong National Advisory Council presence at his airport and did not
                      believe that common “types” of complaints and issues are always
                      addressed through this council. Without a strong National Advisory
                      Council presence, the agency may be missing opportunities to identify
                      and bring important employee concerns to the attention of senior
                      agency leadership.

              By not successfully addressing such longstanding workplace issues, these
              proactive programs may provide false hope and have the unanticipated effects
              of heightening employee dissatisfaction and further undermining morale.
              Given their frustration, employees may be distracted and less focused on their
              security and screening responsibilities. These factors could in turn adversely
              affect TSA’s overall transportation security mission by increasing turnover
              and decreasing workforce stability.


    Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                            Page 20 

 Recommendations
          We recommend that the Assistant Secretary of the Transportation Security
          Administration:

          •	 Recommendation #1: Realign the Office of the Ombudsman so that it
             reports directly to the Assistant Secretary, thus better ensuring its
             independence within the organization.

          •	 Recommendation #2: Establish an explicit policy or “charter” that
             clearly sets forth the Office of the Ombudsman’s role, authority,
             responsibility, and jurisdiction. This should include discussion of the
             authorities provided to the Ombudsman to:

               -   Plan and execute all necessary activities, including site visits, free
                   from interference;
               -   Suggest corrective actions to airports and Area Directors as a result of
                   its activities; and
               -   Follow up with Transportation Security Administration officials
                   responsible for airport operations to ensure that corrective actions are
                   implemented.

          •	 Recommendation #3: Ensure that the agency:

               -   Improves the Inquiry Management System or acquires a system
                   capable of performing the necessary data manipulation and analysis
                   needed to track issues, identify trends, and generate value-added
                   management reports; and
               -   Provides Federal Security Directors with useful Ombudsman data for
                   their respective airports.

          •	 Recommendation #4: Issue a Management Directive that clearly sets
             forth the purpose, responsibilities, policies, and procedures for
             consistently implementing and assessing the Integrated Conflict
             Management System to ensure that:

               -   Sufficient resources are made available to effectively and more
                   consistently implement the Integrated Conflict Management System
                   locally. Accordingly, local management should consider the size of
                   the workforce, the nature of the designated Integrated Conflict
                   Management System Coordinator’s full-time responsibilities, and any
                   existing collateral duty assignments when deciding how to structure,
                   position, and fill this critical position within the local organization;




Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 21 

               -   The Model Workplace Program Office establishes performance
                   metrics to identify and assess the effectiveness of the program and
                   potential areas for improvement; and
               -   The Integrated Conflict Management System Coordinators develop
                   and use internal systems to track the status of employee concerns,
                   analyze the data to identify workforce trends, and regularly report the
                   results to provide information on local workplace issues to local
                   leadership and Transportation Security Administration Headquarters.

          •	 Recommendation #5: Issue a Management Directive or revise the
             National Advisory Council’s charters to ensure that:

               -	 TSA fills all points of contact positions nationwide;
               - Points of contact are provided specific guidance to better understand
                  their roles and responsibilities for obtaining feedback on workplace
                  issues and concerns from the local workforce and communicating that
                  information to their designated National Advisory Council members;
               - National Advisory Council members and points of contact at the
                  airports are allowed adequate time to fulfill assigned roles in the
                  National Advisory Council;
               - National Advisory Council members routinely contact their designated
                  field points of contact to facilitate a continued exchange of information
                  on agency-wide workplace issues; and
               - National Advisory Council members and the field points of contact
                  effectively coordinate with local Integrated Conflict Management
                  System initiatives, such as employee councils, to provide integrated
                  communication and cross-functional approaches to problem solving
                  and achieve organizational success.

          •	 Recommendation #6: Ensure that appropriate actions are taken to use all
             available options to better publicize and effectively inform the workforce
             of the services available from the Office of the Ombudsman, the Model
             Workplace Program initiative and Integrated Conflict Management
             System, and the National Advisory Council. For example, the agency
             could strengthen its efforts by including information on these initiatives in
             communications emanating from related programs, providing reminders
             on every employee’s paycheck, and delivering details using the agency’s
             Online Learning Center for current and incoming employees.




Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 22 

 Management Comments and OIG Analysis
          TSA generally concurred with the recommendations in the report. TSA did
          not concur with the OIG conclusion that the Office of the Ombudsman would
          be a more effective resource to employees if independently structured in the
          organization.

          TSA’s response provided many details of how the agency has made
          significant progress in building the foundation for a more positive and stable
          workplace environment through both formal and informal means. We
          recognize TSA’s current proactive initiatives represent an agency-wide system
          that is still maturing to provide diverse informal avenues for employees to
          address their workplace concerns. TSA further noted the implementation of
          additional formal channels for resolving problems in the workplace, including
          the new Peer Review grievance process and the Alternative Resolution to
          Conflict Program of the Office of Civil Rights and Liberties.

          We commend TSA for implementing various formal options for employees to
          address their workplace issues, problems, and concerns. Due to resource and
          scope limitations, our audit could not address the full range of TSA’s efforts
          in this area. As such, our report noted that TSA relies on several internal
          “action offices” to receive and manage employees’ formal complaints. We
          defined an employee workplace concern as any expression of dissatisfaction
          regarding TSA operations within agency control but not subject to existing
          administrative adjudication procedures, such as an EEO complaint or an
          employee grievance. As such, any discussion of formal channels of
          resolution, regardless of their impact on the TSA workforce, would have been
          misplaced in this report.

          In citing TSA’s self-reported attrition rate in this report, we offer no opinion
          on the acceptability or appropriateness of the statistic. We merely assert that
          low employee morale is a factor contributing to employee turnover, a
          relationship that was confirmed during our interviews with more than 300
          security screeners. Our findings suggest that increasing the effectiveness of
          the three initiatives reviewed will help reduce workplace conflict and
          employee dissatisfaction, thereby improving individual and collective morale
          among the screening workforce.

          The report provides background on the frequency with which TSA employees
          have filed formal complaints relative to other federal agencies in order to help
          establish the historical scope of TSA’s challenges in this area. This
          information was provided for context to support the importance of the
          agency’s efforts to address the concerns of its workforce through informal
          means. It was not relevant to include statistics or the results of other agencies’
          activities to address formal workplace complaints in a report that exclusively

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 23 

          focused on TSA’s unique efforts to proactively address its employees’
          workplace concerns through informal means.

          Finally, because of limited time and resources, it was not possible for us to
          interview a larger sample of screeners at more locations so that the project
          results could be statistically applicable to the entire TSA screening workforce.
          We selected and visited airports to determine the extent to which long-
          standing workforce concerns previously reported to the TSA Ombudsman, the
          Congress, the DHS OIG, and the media had been resolved. Given the level of
          attention the selected airports received during the past several years, we
          expected to identify and report more favorable conditions at these locations.

          Management Comments to Recommendation 1:
          TSA does not concur and believes the current structure and placement of its
          Office of Ombudsman is appropriate given its role as an informal avenue for
          employees to address their workplace concerns. TSA chose not to follow the
          suggestion of the American Bar Association’s Guide for Federal Employee
          Ombuds – A Supplement to and Annotation of the Standards for the
          Establishment and Operations of Ombuds Offices, that its Ombudsman report
          and have direct access to the highest agency official. Instead, TSA uses an
          organizational ombudsman that reports directly to the TSA Special Counselor,
          an Assistant Administrator equivalent position who has direct access to the
          Assistant Secretary. Through this organizational structure, TSA asserts that
          the Office of Special Counselor is able to raise employee issues received
          through the Office of Ombudsman to senior agency leadership.

          OIG Evaluation: We would like TSA to reconsider implementing our
          recommendation. We disagree that the Ombudsman’s current alignment
          ensures that it is not unduly influenced by other organizational components.
          Evidence obtained during our audit supports our conclusion that TSA’s
          Ombudsman has experienced a progressively diminished role within the
          agency, which has rendered it a less proactive and effective employee
          resource. We determined that other internal TSA interests have exercised an
          inappropriate level of influence over the planning and execution of a number
          of critical Ombudsman activities. These actions have compromised the
          Ombudsman’s effectiveness in conducting outreach to TSA employees and
          helping address their workplace concerns. Furthermore, such activity is
          relieving local management from some degree of accountability for
          implementing the Ombudsman’s suggested corrective actions for improving
          their workplace environments. This recommendation is unresolved and will
          remain open until TSA can provide more assurance that the Ombudsman’s
          activities are free from interference to provide the most effective services to
          the workforce.




Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 24 

          Management Comments to Recommendation 2:
          TSA concurs and plans to clearly set forth the role, authority, responsibilities,
          and jurisdiction of its Ombudsman within its organizational context as an
          informal avenue for addressing employee workplace concerns. TSA plans to
          issue a Management Directive in this regard by the end of calendar year 2008.
          The Management Directive will clearly identify steps to take when allegations
          are made of retaliatory actions toward individuals who choose to use this or
          another option for raising issues or concerns to management. The Office of
          the Ombudsman will continue to suggest corrective actions to local
          management and will follow-up with appropriate officials on those
          recommendations in an informal, collaborative, problem-solving manner.

          OIG Evaluation: TSA’s proposed Management Directive will help improve
          the effectiveness of the Office of Ombudsman by identifying its role,
          authority, responsibilities, and jurisdiction. The Ombudsman’s practice of
          suggesting corrective actions without ensuring their implementation impedes
          the effectiveness of its services and does not ensure accountability. This
          recommendation is resolved, but will remain open until we have the
          opportunity to review the final Management Directive. For accountability
          purposes, we would also like further justification for the lack of
          documentation of the Ombudsman’s recommendations to local management.

          Management Comments to Recommendation 3:
          TSA concurs and noted that it is improving the reporting activities of the
          Ombudsman to ensure more responsive data and trend analyses. TSA plans to
          provide individualized reports to specific airports when the employee contact
          volume is at such a level that it will not compromise the confidential nature of
          the contacts. The agency plans to make specific improvements to the Inquiry
          Management System as they are identified, as long as they are cost effective
          and properly funded. In the longer term, TSA will consider reporting needs
          and requirements of the Office of Ombudsman in the agency’s development
          of an enterprise-wide case management solution. TSA included this solution
          in the Office of the Special Counselor’s 2009-2014 Strategic Plan and is
          scheduled to deploy it to the Office of the Ombudsman in coordination with
          agency priorities.

          OIG Evaluation: TSA’s proposed actions will help improve the
          effectiveness of the Ombudsman by instituting more robust and strategic
          reporting and data analysis activities. Individualized Ombudsman reports for
          specific airports will help local management address trends in workforce
          concerns exclusive to each location. Improvements to the Inquiry
          Management System will further enhance the Ombudsman’s ability to track
          the status of employees’ individual concerns. This recommendation is
          resolved, but will remain open until we have the opportunity to review an


Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 25 

          action plan and details to support TSA’s proposed improvements, including
          the individualized reports.

          Management Comments to Recommendation 4:
          TSA concurs in part and plans to issue a Management Directive addressing
          the implementation of Integrated Conflict Management System Standards by
          the end of calendar year 2008. The Integrated Conflict Management System
          Standards specifically address the positioning, role, and responsibilities of the
          Integrated Conflict Management System Coordinator. The Model Workplace
          Program Office is working with the Office of Security Operations to ensure
          the duties of Integrated Conflict Management System Coordinators and the
          resource requirements for employee engagement are factored into developing
          local staffing models. The Integrated Conflict Management System Standards
          are also being integrated into job competencies, performance plans, training,
          hiring, rewards and recognition, and existing systems of accountability, such
          as performance metrics, performance management, and site assessments.
          TSA has allocated additional resources to the Model Workplace Program
          Office to further enhance competency development, support the National
          Advisory Council point of contact network, and establish a greater presence in
          the field for hands-on guidance and support to local efforts in meeting
          Integrated Conflict Management System Standards.

          OIG Evaluation: TSA’s actions to develop Integrated Conflict Management
          System Standards and its efforts to issue a Management Directive will add a
          critical element of consistency in how the local Integrated Conflict
          Management System is structured, implemented, and evaluated. These
          actions will help ensure that local management and Integrated Conflict
          Management System Coordinators understand their respective roles and
          responsibilities and will allow their performance, and the ultimate
          effectiveness of their local systems, to be measured according to defined
          criteria. This recommendation is resolved, but will remain open until we have
          the opportunity to review the Integrated Conflict Management System
          Standards and Management Directive.

          Management Comments to Recommendation 5:
          TSA concurs and plans to codify the National Advisory Council point of
          contact network’s roles, responsibilities, and resource requirements in the
          National Advisory Council Charter. TSA is also working with the Model
          Workplace Program Office to firmly establish the points of contact network to
          ensure it is a robust tool linking employees at all airports with senior TSA
          leadership. The National Advisory Council network will be implemented by
          the end of calendar year 2008 to consist of National Advisory Council Alumni
          and local points of contact. Once fully established, either a National Advisory
          Council member or local point of contact will represent each airport. Points
          of contact will also be members of local employee councils and will partner

Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 26 

          with their Integrated Conflict Management System Coordinators to ensure
          issues of national significance that emerge from any segment of the workforce
          are forwarded to the National Advisory Council for consideration. TSA will
          keep FSDs and the entire workforce fully informed of these roles,
          responsibilities, and requirements and two new Model Workplace Program
          Office staff members would be dedicated to ensuring the accessibility and full
          potential of the network.

          OIG Evaluation: TSA’s plans to keep employees informed and achieve
          greater representation of workforce issues through an expanded and more
          engaged national point of contact network will improve the overall
          effectiveness of the National Advisory Council. This recommendation is
          resolved, but will remain open until we review the revised National Advisory
          Council Charter, the National Advisory Council member and points of contact
          roster, and documented evidence of the outreach provided to the workforce.

          Management Comments to Recommendation 6:
          TSA concurs and will continue to engage in multiple efforts to raise employee
          awareness of options and services through a variety of avenues. TSA
          indicated the Ombudsman was successful in distributing a message about its
          services in leave and earnings statements issued to all TSA employees in
          December 2007. This method of communication will be repeated on a regular
          basis. Furthermore, TSA will continue to use weekly electronic newsletters,
          leadership webcasts, leave and earnings statement messages, the TSA Intranet,
          and regular broadcast emails to all employees from TSA leadership.

          OIG Evaluation: Although TSA concurs with this recommendation, its
          actions do not satisfactorily address its intent. Specifically, TSA’s response
          only addresses the promotion of the Ombudsman but does not specifically
          indicate that the other two proactive initiatives available to employees will be
          similarly promoted. The response also does not specify the level of detail the
          agency will provide to ensure employees know and understand all of the
          options available to raise concerns appropriately. This recommendation is
          unresolved and will remain open until TSA provides additional detail on the
          extent of information disseminated to the workforce.




Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                        Page 27 

Appendix A
Purpose, Scope, and Methodology


                  Our audit objective was to determine the effectiveness of TSA’s efforts to proactively
                  identify and address employee workplace problems, issues, and concerns.
                  Specifically, we assessed whether TSA’s:

                  •	 Office of the Ombudsman is effectively organized and has implemented effective
                     systems and procedures to address employee concerns and issues;
                  •	 Model Workplace Program initiative has been implemented effectively to assist
                     employees with constructively raising issues, solving problems, and avoiding the
                     formal complaint process through the agency’s implementation of the Integrated
                     Conflict Management System; and
                  •	 National Advisory Council has been effectively structured and implemented to
                     identify agency-wide employee workplace problems, issues, and concerns and
                     propose appropriate solutions.

                  We reviewed applicable federal laws, directives, regulations, and prior audit reports.
                  We interviewed personnel at TSA Headquarters and visited eight airports (five
                  Category X, two Category I, and one Category II3). We selected eight airports where
                  TSA employees alerted congressional representatives, the DHS OIG, the media, and
                  TSA’s Office of the Ombudsman of concerns about how the agency operates at their
                  locations. The airports we visited were Albany International Airport, Austin Straubel
                  International Airport, Baltimore Washington International Thurgood Marshall
                  Airport, Houston-Hobby Airport, Boston Logan International Airport, Philadelphia
                  International Airport, Ronald Reagan Washington National Airport, and Seattle-
                  Tacoma International Airport.

                  At each airport, we interviewed a judgmental sample of approximately 40 TSOs (320
                  total), selected from duty rosters provided by TSA, and then analyzed their
                  comments. We conducted these interviews at the employees’ respective airports to
                  assess their awareness and opinions of the agency’s programs and initiatives under
                  review by the OIG. Each interview was conducted privately and specifically
                  addressed the three programs reviewed and the local management’s efforts to create
                  awareness. Employees often shared other relevant, unsolicited concerns during these
                  interviews.

                  To determine whether TSA’s Office of the Ombudsman is effectively organized and
                  has implemented effective systems and procedures to address employee concerns and
                  issues, we interviewed the Office of the Ombudsman’s staff, TSA Special Counselor,
                  and a sample of TSOs selected at each airport. We directly observed and documented
                  work-related processes and procedures conducted by the Office of the Ombudsman’s
                  staff. Also, we interviewed TSA senior management at airports in order to determine

3
 TSA classifies commercial airports in the United States into one of five security risk categories (X, I, II, III, and IV)
based on various factors, such as the total number of takeoffs and landings annually, and other security considerations.
In general, Category X airports have the highest number of passenger boarding and Category IV have the lowest.

                Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                           Page 28 

Appendix A
Purpose, Scope, and Methodology


            their responsiveness to observations and suggested corrective actions identified as a
            result of Office of the Ombudsman’s site visit reports.

            To determine if the Integrated Conflict Management System has been implemented
            effectively, we interviewed Model Workplace Program Office personnel, local
            program officials responsible for the administration of the Integrated Conflict
            Management System, and a sample of TSOs from selected airports. We administered
            a questionnaire to each airport’s Integrated Conflict Management System Coordinator
            to determine their technical backgrounds and how local programs are structured and
            communicated with TSA Headquarters personnel. We also reviewed Model
            Workplace Program Initiative documentation, including the Coordinators Guide to
            Integrated Conflict Management System Implementation, and an Integrated Conflict
            Management System mandate to FSDs, issued in February 2007.

            To evaluate whether the National Advisory Council has been effectively implemented
            to identify employee workplace problems, issues, and concerns, and assist TSA
            leadership with corrective actions, we interviewed National Advisory Council
            committee members, airport points of contact for both the TSO Advisory Council and
            the Assistant FSD for Screening Advisory Council, and a sample of TSOs at selected
            airports. Additionally, we attended one of the National Advisory Council’s quarterly
            presentations to the TSA Administrator to directly observe its activities, outcomes,
            and presentation of employee issues to TSA senior leadership.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform the
            audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that the evidence
            obtained provides a reasonable basis for our findings and conclusions based on our
            audit objectives. We conducted fieldwork between July 2007 and December 2007
            under the authority of the Inspector General Act of 1978, as amended.




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 29 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 30 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 31 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 32 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 33 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 34 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 35 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 36 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 37 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 38 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 39 

Appendix B
Management Comments to the Draft Report




           Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                   Page 40 

Appendix C
TSA Internal Action Offices Designated to Address Complaints



Major Duties and Responsibilities Related to Employee Concerns and Complaints

                                  Office of Civil Rights and Liberties

• The Office of Civil Rights and Liberties addresses Equal Employment Opportunity complaints
  filed by TSA employees and applicants for TSA employment who feel they were subject to
  discriminatory employment practices, unlawful harassment, or retaliation.
• Process involves informal counseling to complainant and an attempt to resolve the issue through
  the Office of Civil Rights and Liberties’ Informal/Alternative Resolutions to Conflict Division.

                             Office of Inspection, Investigations Division

• The Office of Inspection investigates criminal and noncriminal misconduct by TSA employees,
  mismanagement, violations of TSA’s security directives, and allegations of sexual harassment
  involving an FSD or other executive level management officials.
• The Office of Inspection is obligated to report certain matters to the DHS OIG first for a
  determination of whether the OIG or TSA will conduct the investigation.

                   Office of Security Operations, Management Inquiry Branch

• Office of Security Operation’s Management Inquiry Branch was established in May 2006 to
  provide an avenue to report misconduct or mismanagement without fear of reprisal. The scope
  of its authority is limited to investigating misconduct or mismanagement of a noncriminal nature
  involving only senior level TSA employees: FSDs, Assistant Federal Security Directors, or
  other executive level management officials.
• The Management Inquiry Branch investigations include: time and leave abuse/fraud, offensive
  emails, nepotism, intimidation, hostile work environment, inappropriate comments, and poor
  judgment.
• The Management Inquiry Branch also has an administrative function to review “referral” cases
  for closure and provide information to the FSDs at those airports where the referrals originated.

                                         Office of Human Capital

• The Office of Human Capital has a number of sub-offices that deal with specific types of
  employee complaints and allegations:
   • Professional Review Board
   • Disciplinary Review Board
   • Services and Consultation Division
   • Diversity and Reasonable Accommodation Office
   • Employee Relations Office.


             Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                     Page 41 

Appendix D
TSA’s Integrated Conflict Management System Maturity Model
Source: TSA’s Model Workplace Program Office




            Transportation Security Administration’s Efforts To Proactively Address Employee Concerns 


                                                    Page 42 

Appendix E
Major Contributors to this Report



                  Transportation Security Audits Division

                  Timothy Crowe, Director
                  Patrick O’Malley, Audit Manager
                  Gary Alvino, Auditor-In-Charge
                  Robert Ferrara, Auditor
                  Amy Nase, Auditor
                  Michael Talevi, Auditor
                  Richard Kotecki, Referencer




            Transportation Security Administration’s Efforts To Proactively Address Employee Concerns

                                                    Page 43
Appendix F
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Transportation Security Administration
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Director, GAO/OIG Liaison Office
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




            Transportation Security Administration’s Efforts To Proactively Address Employee Concerns

                                                    Page 44
Appendix F
Report Distribution




 Additional Information and Copies
 To obtain additional copies of this report, call the Office of Inspector General (OIG) at
 (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
 www.dhs.gov/oig.


 OIG Hotline
 To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
 or noncriminal misconduct relative to department programs or operations:

     •   Call our Hotline at 1-800-323-8603;
     •   Fax the complaint directly to us at (202) 254-4292;
     •   Email us at DHSOIGHOTLINE@dhs.gov; or
     •	  Write to us at:

            DHS Office of Inspector General/MAIL STOP 2600, 

            Attention: 

 Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410, Washington,
 DC 20528,

 The OIG seeks to protect the identity of each writer and caller.
